NO._____________
IN THE SUPREME COURT OF THE UNITED STATES
ROLANDO B. VILLARREAL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
Michael Herman, appointed under the Criminal Justice Act, certifies that, pursuant to
Rule 29.5, he served the preceding Petition for Writ of Certiorari and the accompanying Motion
for Leave to Proceed In Forma Pauperis on counsel for the Respondent (1) by mailing, on April
9, 2021, a copy of these documents (via first-class United States mail, postage prepaid) to:
The Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on April 12, 2021, the said documents via electronic mail to the Office
of the Solicitor General at the following e-mail address: SupremeCtBriefs@USDOJ.gov. He
certifies that all parties required to be served have been served.

____________________________
MICHAEL HERMAN

